                                                                OFFICE OF AUDIT SERVICES, REGION II
                                                                 JACOB K. JAVITS FEDERAL BUILDING
                                                                     26 FEDERAL PLAZA, ROOM 3900
                                                                              NEW YORK, NY 10278
May 18, 2012


Report Number: A-02-11-02007

Ms. Debrab Garcia
Chief Executive Officer/Executive Director
Long Island Child and Family Development Services, Inc.
98 Austin Street
Patchogue, NY 11772

Dear Ms. Garcia:

Enclosed is the U. S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled Long Island Child and Family Development Services, Inc. 's
Financial Management System Did Not Accurately Disclose Head Start Program Results. We
will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act,S U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http ://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Glenn H. Richter, Audit Manager, at (518) 437-9390, extension 227, or through email at
Glenn.Richter@oig.hhs .gov. Please refer to report number A-02-11-02007 in all
correspondence.

                                             Sincerely,



                                             Ijames P. Edertl
                                             Regional Inspector General
                                              for Audit Services

Enclosure
Page 2 - Ms. Debrah Garcia

Direct Reply to HHS Action Official:

Ms. Joyce A. Thomas
Regional Administrator
Administration for Children and Families, Region II
26 Federal Plaza, Room 4114
New York, NY 10278
Department of Health and Human Services
            OFFICE OF 

       INSPECTOR GENERAL 





LONG ISLAND CHILD AND FAMILY 

 DEVELOPMENT SERVICES, INC.'S 

FINANCIAL MANAGEMENT SYSTEM 

 DID NOT ACCURATELY DISCLOSE 

 HEAD START PROGRAM RESULTS 





                       Daniel R. Levinson 

                        Inspector General 


                           May 2012 

                         A-02-n-02007 

                        Office ofInspector General
                                          http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs andlor its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments ofHHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEl) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on siguificant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations

The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations offraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, 01 utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of 01
often lead to criminal convictions, administrative sanctions, andlor civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oiq.hhs.qov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND 


Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as "Head Start." Within the U.S. Department of Health and
Human Services (HHS), the Administration for Children and Families (ACF) administers Head
Start.

Long Island Child and Family Development Services, Inc. (LIHS) is a nonprofit corporation that
operates Head Start programs at 23 centers throughout Suffolk County, New York. During the
5-year period December 1, 2004, through November 30, 2009, ACF awarded Head Start funds to
LIHS totaling $71,793,310.

Pursuant to 45 CFR § 74.22(b )(2), cash advances to grant recipients shall be limited to the
minimum amounts needed and be timed to be in accordance with the actual, immediate cash
requirements of the recipient organization in carrying out the purpose of the approved program
or project. In addition, Federal regulations require grantees to maintain financial management
systems that provide for accurate, current, and complete disclosure of the financial results of
each program (45 CFR § 74.21(b)(l).

ACF requested that we perform a limited scope review ofLIHS's cash advances. In its request,
ACF expressed concern that a liability for unexpended grant funds reported in LIHS's audited
financial statements for FY s 2005 through 2009 indicated that LIHS drew down Head Start grant
funds in excess of program-related expenditures.

OBJECTIVE

Our objective was to determine ifLIHS drew down Head Start grant funds in excess of program­
related expenditures during FYs 2005 through 2009.

SUMMARY OF FINDING

LIHS did not draw down Head Start grant funds in excess of program-related expenditures
during FY s 2005 through 2009. Rather, LIHS overstated its liability for unexpended grant funds
during this period (the overstated liability totaled $1,489,093 at the end ofFY 2009). The
overstatement occurred because LIHS' s procedures for reviewing and approving transactions
recorded in its financial management system were inadequate.
RECOMMENDATIONS

We recommend that LIHS:

   • 	 reduce the liability for unexpended grant funds recorded in its financial management
       system as of the end ofFY 2009 by $\,489,093 and

   • 	 strengthen its procedures for reviewing and approving transactions recorded in its
       financial management system.

LONG ISLAND HEAD START COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, LIHS described steps it had taken to address our
recommendations that it reduce the liability for unexpended grant funds and to strengthen its
financial management system procedures. LIHS's comments appear in their entirety as the
Appendix.




                                                11
                                                  T ABLE OF CONTENTS 




INTRODUCTION.............................................................................................................. 1 


          BACKGROUND ..................................................................................................... 1 

              Head Start Program .......................................................................... ............ 1 

              Long Island Child and Family Development Services, Inc ......................... 1 

              Requirements for Head Start Grantees ........................................................ 1 

              Administration for Children and Families Request for Review .................. 1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ............... ........ .. .............. ............ 2 

               Objective ...................................................................................................... 2 

               Scope ............................................................................................................ 2 

               Methodology ................................ .. ..................... ... ..................... ... .............. 2 


FINDING AND RECOMMENDATIONS ........................................................... ........... .3 


          FINANCIAL TRANSACTIONS IMPROPERLY RECORDED .......... ... ............. .3 


          RECOMMENDATIONS ........................................................................................ .3 


          LONG ISLAND HEAD START COMMENTS AND 

           OFFICE OF INSPECTOR GENERAL RESPONSE .......................... ... ............. .4 


APPENDIX

          LONG ISLAND HEAD START COMMENTS




                                                                     111
                                           INTRODUCTION 


BACKGROUND 


Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as "Head Start." Within the U.S. Department of Health and
Human Services (HHS), the Administration for Children and Families (ACF) administers Head
Start.

Long Island Child and Family Development Services, Inc.

Long Island Child and Family Development Services, Inc. (LIHS) is a nonprofit corporation that
operates Head Start programs at 23 centers throughout Suffolk County, New York. During fiscal
years (FY) 2005 through 2009, ACF awarded Head Start funds to LIHS totaling $71,793,310. 1

Requirements for Head Start Grantees

Pursuant to 45 CFR § 74.22(b )(2), cash advances to grant recipients shall be limited to the
minimum amounts needed and be timed to be in accordance with the actual, immediate cash
requirements of the recipient organization in carrying out the purpose of the approved program
or project. In addition, Federal regulations require grantees to maintain financial management
systems that provide for accurate, current, and complete disclosure of the financial results of
each program (45 CFR § 74.21(b)(l).

Administration for Children and Families Request for Review

ACF requested that we perform a limited scope review ofLIHS's cash advances. In its request,
ACF expressed concern that a liability for unexpended grant funds reported in LIHS's audited
financial statements for FY s 2005 through 2009 indicated that LIHS drew down Head Start grant
funds in excess of program-related expenditures.




1Specifically, ACF awarded Head Start funds to LIHS totaling $13,779,614 in FY 2005; $14,112,805 in FY 2006;
$14,413,121 in FY 2007; $14,452,715 in FY 2008; and $15,035,055 in FY 2009. (LIHS's FY runs from
December 1 through November 30.)


                                                      I

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to detennine ifLIHS drew down Head Start grant funds in excess of program­
related expenditures during FYs 2005 through 2009.

Scope

This review was perfonned based upon a limited scope request from ACF. Therefore, we did not
perfonn an overall assessment ofLIHS's internal control structure. Rather, we reviewed only
the internal controls that pertained directly to our objective.

We conducted fieldwork at LIHS's administrative office in Patchogue, New York from
June through December 2011.

Methodology

To accomplish our objective, we:

   • 	 reviewed relevant Federal laws and regulations,

   • 	 reviewed LIHS's audited financial statements for FYs 2005 through 2009,

   • 	 interviewed LIHS personnel to gain an understanding of LIHS ' s financial management
       system,

   • 	 reviewed LIHS's procedures for reviewing and approving transactions recorded in its
       financial management system,

   • 	 traced Head Start funds drawn down by LIHS to invoices and other supporting 

       documentation, 


   • 	 analyzed transactions recorded in the liability account established in LIHS's financial
       management system to track unexpended grant funds, and

   • 	 discussed our results with LIHS officials.

We conducted this perfonnance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perfonn the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                2

                                FINDING AND RECOMMENDATIONS 


LIHS did not draw down Head Start grant funds in excess of program-related expenditures
during FYs 2005 through 2009. Rather, LIHS overstated its liability for unexpended grant funds
during this period (the overstated liability totaled $1,489,093 at the end ofFY 2009). The
overstatement occurred because LIHS' s procedures for reviewing and approving transactions
recorded in its financial management system were inadequate.

FINANCIAL TRANSACTIONS IMPROPERLY RECORDED

The liability for unexpended grant funds recorded in LIHS's financial management system was
overstated by $1,489,093 at the end ofFY 2009 because LIHS improperly recorded financial
transactions. Specifically:

    • 	 The liability account was overstated by $764,669 because LIHS did not record a FY 2005
        payment related to its not meeting established Head Start enrollment levels. 2

    • 	 The liability account was overstated by $1,532,499 because, in FY 2005, the account was
        not adjusted for unsupported drawdowns previously recorded. 3

    • 	 The liability account was understated by $808,075 because, during FYs 2007 through
        2009, LIHS personnel improperly recorded yearend and corresponding reversing entries.

These improperly recorded transactions occurred because LIHS's procedures for reviewing and
approving transactions recorded in its financial management system were inadequate. As a
result, LIHS did not accurately and completely disclose the financial results of its Head Start
program.

RECOMMENDATIONS

We recommend that LIHS:

    • 	 reduce the liability for unexpended grant funds recorded in its financial management
        system as of the end ofFY 2009 by $1,489,093 and

    • 	 strengthen its procedures for reviewing and approving transactions recorded in its 

        financial management system. 





2 LIHS   returned these funds to ACF.

3LIHS initially indicated to its independent auditor that it was unable to provide requested support for the
drawdowns and properly recorded the drawdowns in the liability account. However, the liability account was not
adjusted when LIHS subsequently provided the requested support.


                                                       3

LONG ISLAND HEAD START COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, LIHS described steps it had taken to address our
recommendations that it reduce the liability for unexpended grant funds and to strengthen its
financial management system procedures. LIHS's comments appear in their entirety as the
Appendix.




                                                4

APPENDIX 

                          APPENDIX: LONG ISLAND HEAD START COMMENTS 





                                                                                                                                               Long Island Head Start
                                                                                                                                98 Austin Street, Patchogue, NY, 11772
                                                                                                                               Phone 631.7585200 I Fax 631 .758.3512
                                                                                                                      www.llheadstilrt.org/email:lnfO@lll.leadstartorg


                                     April 10, 2012

RQARQ   Of plBECJOBS                 Office of Inspector General
Tem!nt;fl O. Goode, Chair            Department of Health and Human Services, Region II
                                     26 Federal Plaza, Rm. 3900
Mili'tN A. Pany, CO-<haif
                                     New York, N.V.10278
I«Jthleen ~faro. Treasurer           Attn.: Mr. James P. Edert, Regional Inspector General for Audit Services

Brenda.Joyce H. Scott, Sectetal')l              Report Number: A-02-11-02007
                                     Re:
GracemarieCollins
                                     Dear Mr. Edert,
Tool Dean
                                     In response to your letter dated March 29, 2012, referenced to report number A-02­
HonORlble WIlliam G. Ford
                                     1102007, the agency has concluded that L.I. Child and Family Development Services,
                                     Inc. did not draw down Grant Funds in excess of program expenditures during FYs
                                     2005 through 2009.
mn B. Johnson

                                     As per your recommendation to reduce the liability for unexpended grant funds
Deln S. Kupinsky
                                     recorded in our financial management system as of the end of FY 2009 by
Mary Ann Murphy                      $1,489,093, we have created a reversing journal entry in order to remove the
                                     erroneous liability. In addition, we have strengthened our procedures for reviewing
                                     and approving transactions recorded in our financial management systems, by
Re~~nd    Allan R. Robinson
                                     refining internal controls and closely monitoring journal entries to ensure that they
                                     correlate with actual transactions according to GAP.

CHIEf fXEnUM OFfICER
                                     We appreciate your time and effort reviewing, tracing and analyzing all transactions
Debnlh Ga.eli. HS/EHS Prog~m5
                                     recorded in the liability account which incorrectly overstated our Financial
                                     Statements from 2005 to present.
EXECU'IlyE POLICY COUNCIL

                                     Should you have any questions please do not hesitate to contact Elsa Cruciani,
Gemma Jlttanslngh·Mayer, Chair       Director of Finance at (631) 758-5200 X 107 or me directly at X 122.
Jenny Rein<)SO, Co<hair
                                     Sincerely,

                                     Vebt"C!lvGc;wr~
Jennifer 8errocal, Secretary
                                     Debrah Garcia
                                     CEO/Executive Director

                                     cc:       Terrence D. Goode, Chair, Board of Directors
                                               Elsa G. Cruciani, Director of Finance
                                               Glenn H. Richter, Audit Manager

                                           The miS$ion of long Island He~d Start is to provide a (omprehen~ive learning environment to (hildren respectful of 

                                      their cultures and to aSSist families in rea(hing self-suffiden(y through the (ombined efforts of parents, (Qmmunity, and staff. 

